No. ______
In the

Supreme Court of the United States
________________

WARSAW ORTHOPEDIC, INC., et al.,
v.

Petitioners,

RICK C. SASSO, M.D.,
________________

Respondent.

On Petition for Writ of Certiorari to the
Court of Appeals of Indiana
________________
PETITION FOR WRIT OF CERTIORARI
________________
PAUL D. CLEMENT
Counsel of Record
JOHN C. O’QUINN
C. HARKER RHODES IV
MARIEL A. BROOKINS
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
October 8, 2021

Counsel for Petitioners

QUESTION PRESENTED
Federal courts have exclusive jurisdiction over all
cases arising under federal patent law, and state
courts are explicitly divested of such jurisdiction. 28
U.S.C. §1338(a). Exclusive federal jurisdiction applies
even to claims that invoke state law whenever an issue
of federal patent law is “(1) necessarily raised,
(2) actually disputed, (3) substantial, and (4) capable
of resolution in federal court without disrupting the
federal-state balance.” Gunn v. Minton, 568 U.S. 251,
258 (2013).
This case features a split over the same
underlying patent dispute. Just last year, the Federal
Circuit correctly held that the dispute arises under
federal patent law and so is subject to exclusive federal
jurisdiction. Two months later, in the decision below,
the Indiana Court of Appeals explicitly rejected the
Federal Circuit’s reasoning and held that the same
dispute arises only under state law, not federal patent
law. On that basis, the Indiana court affirmed the
Indiana trial court’s $112 million damages verdict for
a “native Hoosier”—a verdict predicated on a statecourt jury’s resolution of a dispute about the scope of
patent claims. That decision is a striking illustration
of the danger posed by state-court adjudication of
patent disputes, and the pressing need for this Court
to resolve this split in authority and clarify when a
patent case falls within exclusive federal jurisdiction.
The question presented is:
Whether a dispute raises substantial issues of
federal patent law when its resolution necessarily
depends on patent-law determinations regarding
claim scope and validity.

ii
PARTIES TO THE PROCEEDING
Petitioners Warsaw Orthopedic, Inc., Medtronic
Inc., and Medtronic Sofamor Danek, Inc., were
defendants in the Circuit Court of Indiana and
appellants in the Indiana Court of Appeals.
Respondent Rick C. Sasso, M.D. was the plaintiff in
the Circuit Court of Indiana and appellee in the
Indiana Court of Appeals.

iii
CORPORATE DISCLOSURE STATEMENT
Petitioners are subsidiaries of Medtronic plc. No
other publicly held company owns 10% or more of
petitioners’ stock.

iv
STATEMENT OF RELATED PROCEEDINGS
Warsaw Orthopedic, Inc. v. Sasso, No. 19A-PL378 (Indiana Supreme Court denied transfer May 13,
2021).
Warsaw Orthopedic, Inc. v. Sasso, No. 19A-PL378 (Indiana Court of Appeals opinion issued Dec. 4,
2020; judgment entered Dec. 11, 2020).
Sasso, M.D. v. Warsaw Orthopedic, Inc., No.
43D01-1903-PL-20 (Circuit Court of Indiana judgment
entered Nov. 29, 2018).

v
TABLE OF CONTENTS
QUESTION PRESENTED .......................................... i
PARTIES TO THE PROCEEDING ........................... ii
CORPORATE DISCLOSURE STATEMENT ........... iii
STATEMENT OF RELATED PROCEEDINGS ....... iv
TABLE OF AUTHORITIES ..................................... vii
PETITION FOR WRIT OF CERTIORARI ................ 1
OPINIONS BELOW ................................................... 4
JURISDICTION ......................................................... 4
STATUTORY PROVISIONS INVOLVED................. 4
STATEMENT OF THE CASE ................................... 5
A. Sasso Sues Medtronic on Patent-Based
Claims in Indiana State Court .................... 5
B. Medtronic Files an Action Invoking
Exclusive Federal Jurisdiction, and the
Federal Circuit Holds That Exclusive
Federal Jurisdiction Applies ........................ 8
C. The Indiana Court of Appeals Explicitly
Rejects the Federal Circuit’s Decision
and Affirms the State Trial Court’s
$112 Million Patent-Based Judgment ....... 13
REASONS FOR GRANTING THE PETITION....... 15
I.

The Decision Below Is In Direct Conflict With
The Federal Circuit’s Precedential Decision
On The Same Facts ........................................... 17

II. The Decision Below Reflects The Ongoing
Confusion In The Lower Courts Over When A
Federal Issue Is Substantial Under Gunn ....... 21

vi
III. The Decision Below Is Emphatically Wrong
And Thwarts Congress’ Express Directives ..... 25
IV. The Jurisdictional Question Presented Is
Exceptionally Important ................................... 34
CONCLUSION ......................................................... 36
APPENDIX
Appendix A
Opinion, Court of Appeals of Indiana,
Warsaw Orthopedic, Inc. v. Sasso, No. 19APL-378 (Dec. 4, 2020) .................................. App-1
Appendix B
Order, Court of Appeals of Indiana, Warsaw
Orthopedic, Inc. v. Sasso, No. 19A-PL-378
(Jan. 26, 2021) ........................................... App-48
Appendix C
Order Denying Transfer, Indiana Supreme
Court, Warsaw Orthopedic, Inc. v. Sasso,
No. 19A-PL-378 (May 13, 2021) ................ App-50
Appendix D
Judgment, Indiana Marshall Circuit Court,
No. 50C01-1806-PL-27 (Nov. 29, 2018) .... App-52
Appendix E
Relevant Statutes ...................................... App-54
28 U.S.C. §1338(a) ................................. App-54
28 U.S.C. §1295(a)(1) ............................. App-54

vii
TABLE OF AUTHORITIES
Cases
Bonito Boats, Inc.
v. Thunder Craft Boats, Inc.,
489 U.S. 141 (1989)................................................ 28
Christianson v. Colt Indus. Operating Corp.,
486 U.S. 800 (1988)................................................ 24
Foster v. Chatman,
136 S.Ct. 1737 (2016)............................................... 4
Fresenius USA Inc. v. Baxter Int’l, Inc.,
721 F.3d 1330 (Fed. Cir. 2013) ........................ 11, 34
Goldfarb v. Va. State Bar,
421 U.S. 773 (1975)................................................ 27
Grable & Sons Metal Prods.
v. Darue Eng’g & Mfg.,
545 U.S. 308 (2005)................................................ 26
Grupo Dataflux v. Atlas Global Grp.,
541 U.S. 567 (2004)................................................ 34
Gunn v. Minton,
568 U.S. 251 (2013)........................................ passim
Holmes Grp., Inc.
v. Vornado Air Circulation Sys., Inc.,
535 U.S. 826 (2002)................................................ 29
Inspired Dev. Grp., LLC
v. Inspired Prods. Grp.,
938 F.3d 1355 (Fed. Cir. 2019) .............................. 22
Jang v. Bos. Sci. Corp.,
767 F.3d 1334 (Fed. Cir. 2014) ...................... passim
Lapides v. Bd. of Regents,
535 U.S. 613 (2002)................................................ 34

viii
Markman v. Westview Instruments, Inc.,
517 U.S. 370 (1996).................................................. 8
Maxchief Invs. Ltd. v. Wok & Pan, Ind., Inc.,
909 F.3d 1134 (Fed. Cir. 2018) ........................ 31, 32
MDS (Canada) Inc.
v. Rad Source Techs., Inc.,
720 F.3d 833 (11th Cir. 2013)................................ 22
NeuroRepair, Inc. v. The Nath Law Grp.,
781 F.3d 1340 (Fed. Cir. 2015) .............................. 22
Ohralik v. Ohio State Bar Ass’n,
436 U.S. 447 (1978)................................................ 27
Teva Pharm. USA v. Sandoz,
574 U.S. 318 (2015)................................................ 31
Warsaw Orthopedic, Inc. v. Sasso,
2019 WL 428574 (N.D. Ind. Jan. 31, 2019)..... 11, 20
Warsaw Orthopedic, Inc. v. Sasso,
977 F.3d 1224 (Fed. Cir. 2020) ...................... passim
Xitronix Corp. v. KLA-Tencor Corp.,
757 F.App’x 1008 (Fed. Cir. 2019)............. 22, 24, 33
Xitronix Corp. v. KLA-Tencor Corp.,
882 F.3d 1075 (Fed. Cir. 2018) ........................ 22, 23
Xitronix Corp. v. KLA-Tencor Corp.,
892 F.3d 1194 (Fed. Cir 2018) ............................... 23
Xitronix Corp. v. KLA-Tencor Corp.,
916 F.3d 429 (5th Cir. 2019)............................ 22, 24
Statutes
28 U.S.C. §1257(a) ...................................................... 4
28 U.S.C. §1295(a)(1) .......................................... 12, 26
28 U.S.C. §1338(a) ...................................... 1, 6, 26, 28

ix
28 U.S.C. §1447(d) ...................................................... 6
28 U.S.C. §1631 ........................................................ 13
Other Authorities
Corrected Brief of Defendant-Appellee,
Warsaw Orthopedic, Inc. v. Sasso, 977 F.3d
1224 (Fed. Cir. filed Apr. 30, 2019) ....................... 20
Leahy-Smith America Invents Act,
Pub. L. No. 112-29, 125 Stat. 284 (2011) .............. 29
Notice of Intent to Issue Ex Parte
Reexamination Certificate, No. 90/014,131
(Nov. 26, 2018) ....................................................... 10
Notice of Intent to Issue Ex Parte
Reexamination Certificate, No. 90/014,171
(Nov. 20, 2018) ....................................................... 10
Order, Sasso v. Warsaw Orthopedic, Inc.,
No. 3:13-cv-1031 (N.D. Ind. Apr. 2, 2014) ............... 6
Paul R. Gugliuzza, Rising Confusion About
“Arising Under” Jurisdiction in Patent
Cases, 69 Emory L.J. 459 (2019) ............... 21, 22, 35

PETITION FOR WRIT OF CERTIORARI
There should be no such thing as a state-court
patent trial. Yet that is exactly what the Indiana
courts conducted here, complete with Markman-style
claim construction proceedings, Federal Circuit Bar
Association model patent jury instructions, and a
state court ultimately deciding the consequences of
the U.S. Patent and Trademark Office’s (“PTO’s”)
reexamination of the patents at the heart of this
dispute. None of this should have ever happened.
The Constitution vests the power to create and
define patent rights exclusively with Congress, and
Congress has granted exclusive jurisdiction over all
cases arising under federal patent law to the federal
courts. To underscore the importance of exclusive
federal jurisdiction, Congress explicitly prohibited
state courts from hearing such cases. 28 U.S.C.
§1338(a). That assurance of federal exclusivity is
designed to promote uniformity in interpreting federal
rights in a highly technical field and to protect the
special role of the Federal Circuit in maintaining that
uniformity. Congress directed patent appeals from
every district court across the country to the Federal
Circuit; needless to say, patent disputes in state court
cannot be appealed to the Federal Circuit. Congress’
pursuit of uniformity thus depends on not allowing
patent disputes to proceed in state court. For that
reason, exclusive federal jurisdiction extends not only
to cases in which federal patent law creates the
plaintiff’s cause of action, but any case in which an
issue of federal patent law is “(1) necessarily raised,
(2) actually disputed, (3) substantial, and (4) capable
of resolution in federal court without disrupting the

2
federal-state balance.” Gunn v. Minton, 568 U.S. 251,
258 (2013).
Applying that test, the Federal Circuit—the court
Congress created to exercise exclusive jurisdiction
over all patent appeals—reviewed the same
underlying dispute between these same parties just
last year. That court squarely held that the parties’
controversy presented substantial issues of federal
patent law and therefore fell within the federal courts’
exclusive jurisdiction (and its own exclusive appellate
jurisdiction). Despite that holding of exclusive federal
jurisdiction, however, the Federal Circuit permitted
the district court to abstain from resolving the dispute.
Less than two months later, the Indiana Court of
Appeals took advantage of that opening to reach
precisely the opposite result on the jurisdictional
question, creating an express split in the context of a
single patent dispute. In the decision below, the
Indiana Court of Appeals explicitly rejected the
Federal Circuit’s decision, and held instead that state
courts were free to adjudicate patent-based
controversies such as this one. Its sole basis for that
extraordinary outcome was to assert—in direct
conflict with the Federal Circuit’s contrary view—that
the issues of patent validity and patent scope raised in
this litigation were not “substantial” enough to
warrant federal jurisdiction. On that basis, the
Indiana court proceeded to affirm the state trial
court’s assertion of jurisdiction over this patent case
and its award of over $112 million in damages for a
“native Hoosier.” App.3. The Indiana Supreme Court
denied review altogether, leaving in place the direct
conflict between the decision below and the Federal

3
Circuit’s contrary jurisdictional holding on the same
facts involving the same parties and some of the same
patents.
That stark conflict warrants this Court’s review.
As this case illustrates, there is significant ongoing
confusion in the lower courts about the proper
application of the jurisdictional test this Court laid out
in Gunn. In particular, the courts are divided on how
to determine whether an issue of federal patent law is
substantial enough to the federal system to compel
federal court jurisdiction—let alone how to make that
determination at the outset of a case. As this case
illustrates, in-state plaintiffs have ample incentives to
sue in state courts, and state courts may be tempted
to exercise jurisdiction over disputes that plainly
belong in federal court.
Indeed, despite initial
representations from respondent that little would
turn on patent law, the Indiana trial court here found
itself engaging in claim construction (a proceeding
unique to patent cases), hearing testimony on patent
claim coverage, delivering jury instructions on patent
issues borrowed from the Federal Circuit Bar
Association, and assessing the effect of PTO
reexamination proceedings—all while insisting that
the case was just a run-of-the-mill contract case.
The decision below is not only seriously wrong,
but the issue is exceptionally important to the patent
system.
Given the exclusive subject-matter
jurisdiction created by §1338(a), confusion over the
jurisdictional standard risks wasting substantial
resources and years of litigation if and when patentrelated cases are tried in the wrong courts. More
fundamentally, decisions like the one here frustrate

4
Congress’ goal of ensuring uniformity in federal
patent law and exclusive federal jurisdiction over
patent disputes. That the federal and state courts
could not even agree on the proper application of the
Gunn factors to the same patent dispute underscores
the pressing need for this Court’s review.
OPINIONS BELOW
The opinion of the Indiana Court of Appeals is
reported at 162 N.E.3d 1 and reproduced at App.1-47.
Its order denying rehearing is unreported and
reproduced at App.48-49. The Indiana Supreme
Court’s order denying review is reported at 168 N.E.3d
739 and reproduced at App.50-51.
JURISDICTION
The Indiana Court of Appeals issued its decision
on December 4, 2020, and denied rehearing on
January 26, 2021. The Indiana Supreme Court denied
review on May 13, 2021. Because that denial occurred
before July 19, 2021, the deadline to file any petition
was automatically extended to 150 days. The Indiana
Supreme Court’s discretionary denial is not a decision
on the merits, and so certiorari is proper to the
Indiana Court of Appeals. 28 U.S.C. §1257(a); Foster
v. Chatman, 136 S.Ct. 1737, 1746 n.2 (2016).
STATUTORY PROVISIONS INVOLVED
Relevant statutory provisions are reproduced in
the appendix.

5
STATEMENT OF THE CASE
A. Sasso Sues Medtronic on Patent-Based
Claims in Indiana State Court.
1. Petitioners (collectively “Medtronic”) are a
leading medical-technology company.
Medtronic
regularly works with doctors and surgeons to develop
new medical devices to treat a wide variety of health
conditions.
In 1998, Medtronic began working with
respondent Dr. Rick Sasso, a professor and chief of
spinal surgery at the Indiana University School of
Medicine, App.3-4, on a system to anchor and align
screws and plates in the spine. See App.9-10. The
resulting product became known as the Vertex
System. App.9.
In 1999, Medtronic and Sasso signed the “Vertex
Agreement,” under which Sasso gave Medtronic his
rights in the Vertex system. App.9-10. In exchange,
Medtronic agreed to pay Sasso a 2% royalty on net
sales of the relevant “Medical Device” for eight years
from the first commercial sale of that device, or “if the
Medical Device is covered by a valid claim of an issued
U.S. patent arising out of the Intellectual Property
Rights” provided in the agreement, then for a longer
period, namely, the life of the patent. App.10-11
(emphasis added). In 2002, the PTO issued Patent
No. 6,485,491 (“the ’491 patent”), naming Sasso
among its inventors and Medtronic as the assignee.
App.12.
Medtronic and Sasso also collaborated on another
spinal-surgery invention involving a facet screw
delivery system. They signed the “Facet Screw
Agreement” in 1999, under which Sasso gave

6
Medtronic ownership rights to the screw delivery
system in exchange for a 2.5% royalty on net sales of
that device. App.4-5.
Section 7 of the Facet Screw Agreement, titled
“Term of Agreement,” provided that the agreement
“shall expire upon the last to expire of the patents
included in Intellectual Property Rights, or if no
patent application(s) issue into a patent having valid
claim coverage of the Medical Device, then seven (7)
years from the Date of First Sale of the Medical
Device.” App.6.
In September 2001, the PTO issued Patent
No. 6,287,313 (“the ’313 patent”), with Sasso as the
sole inventor and Medtronic as the assignee. App.6-7.
The PTO later issued a continuation of the ’313 patent
as Patent No. 6,562,046 (“the ’046 patent”). Warsaw
Orthopedic, Inc. v. Sasso, 977 F.3d 1224, 1226 (Fed.
Cir. 2020).
2. In August 2013, Sasso sued Medtronic in
Indiana state court, claiming that Medtronic had
breached the Vertex Agreement by failing to pay him
the full royalties he was owed under that agreement.
App.13. Medtronic removed the action to federal
district court, explaining that Sasso’s claims were
subject to exclusive federal jurisdiction because they
arose under federal patent law. Id.; see 28 U.S.C.
§1338(a). The district court responded with a onesentence order remanding the case back to Indiana
state court. Order, Sasso v. Warsaw Orthopedic, Inc.,
No. 3:13-cv-1031 (N.D. Ind. Apr. 2, 2014), Dkt.37.
That remand order was not appealable. 28 U.S.C.
§1447(d). But even after an erroneous remand order,
this Court retains the ability to remedy a state court’s

7
erroneous exercise of jurisdiction over a case subject to
exclusive federal jurisdiction by reviewing the state
court’s final judgment, and indeed this Court is the
only federal forum available to correct the error in
those circumstances.
3. After the remand to state court, Sasso amended
his complaint to add new claims, alleging that
Medtronic also breached the Facet Screw Agreement.
App.13-14; see Ind.App.Vol.XIV.3-30. 1 Sasso asserted
that the ’313 and ’046 patents have valid claims that
cover various Medtronic products, and that he was
accordingly entitled to royalties on those products for
the life of those patents. See Ind.App.Vol.XIV.3-30.
Medtronic moved to dismiss for lack of subject
matter jurisdiction, explaining that Sasso’s new
claims (like his old claims) were subject to exclusive
federal jurisdiction because they necessarily raised
substantial and disputed questions of federal patent
law—specifically, the proper construction of the ’313
and ’046 patents. Ind.App.Vol.III.16-17. The Indiana
trial court denied the motion, relying largely on the
earlier remand order.
Ind.App.Vol.II.109-10; see
App.14.
The state trial court proceeded to preside over a
case that was largely indistinguishable from federal
patent litigation—except that it took place in an
Indiana state court. To pursue his theory that he was
entitled to additional royalties because the ’313 and
1 Ind.App refers to Appellants’ appendix filed in the Indiana
Court of Appeals on September 13, 2018; Ind.Tr refers to the trial
transcript from November 1-28, 2018. See Case No. 19-A-PL00378 (Ind. Ct. App.).

8
’046 patents covered various Medtronic products,
Sasso took extensive discovery relating to the scope of
those patents’ claim coverage, including a Rule
30(b)(6) deposition of Medtronic that was almost
entirely devoted to that topic. See Ind.App.Vol.IV.16680. Sasso’s expert reports likewise offered extensive
opinions on claim coverage, including claim charts
showing in detail how (in their view) each element of
the relevant patent claims appeared in Medtronic
products.
See,
e.g.,
Ind.App.Vol.III.113-21;
Ind.App.Vol.XV.171-84. The state trial court likewise
treated the litigation as a patent case, even going so
far as to issue a Markman order construing disputed
terms
in
the
patent
claims
at
issue.
Ind.App.Vol.XVI.127 (“The Court recognizes that
claim construction is a matter of law reserved for the
Court, not the jury.… Accordingly, the Court
construes the disputed terms as follows[.]” (citing
Markman v. Westview Instruments, Inc., 517 U.S. 370,
372 (1996))).
B. Medtronic Files an Action Invoking
Exclusive Federal Jurisdiction, and the
Federal Circuit Holds That Exclusive
Federal Jurisdiction Applies.
1. Shortly after receiving Sasso’s expert reports
disclosing his broad construction of the patent claims
at issue, Medtronic filed a declaratory judgment action
in the U.S. District Court for the Northern District of
Indiana. Medtronic proactively sought to obtain
definitive rulings on the construction and validity of
the relevant claims of the ’313 and ’046 patents—as
only a federal court should be able to provide—and,
following from that, a declaration that Medtronic did

9
not breach the Facet Screw Agreement because the
patents do not contain any valid claim covering any of
Medtronic’s products. See App.15. As the district
court and both parties recognized, those declaratory
judgment claims presented the “mirror image” of
Sasso’s state-court claim concerning royalties under
the Facet Screw Agreement. App.20. In another effort
to obtain a federal forum to consider these federal
patent issues, Medtronic also took the extraordinary
step of filing requests with the PTO for ex parte
reexaminations of its own patent claims—specifically,
certain claims of the ’313 and ’046 patents—on the
ground that those claims were necessarily invalid if
Sasso’s broad constructions were correct. App.14-15.
Three months later, Sasso filed a motion asking
the federal district court to abstain from hearing
Medtronic’s claims.
The district court took no
immediate action on that motion.
2. Meanwhile, the Indiana trial court proceeded to
hold what amounted to a patent infringement trial on
Sasso’s claims against Medtronic. Throughout that
trial, from his opening statement onward, Sasso made
clear that the scope of the patent claims was critical to
his case.
See, e.g., Ind.Tr.Vol.III.78-92, 104-05
(presenting Sasso’s view of the key “elements” of claim
26 of the ’313 patent). Sasso presented two expert
witnesses addressing patent law issues, with one
testifying exclusively about patent claim coverage.
See id.; Ind.Tr.Vol.IX.39-55, 57-60, 67-72. And Sasso
himself testified that the invention he assigned to
Medtronic under the Facet Screw Agreement was
covered by claim 26 of the ’313 patent, which he
described variously as “incredibly broad” and “really

10
really broad.” Ind.Tr.Vol.V.68. Despite allowing that
testimony, the state court precluded Medtronic from
responding that any patent claim with that broad a
scope would be invalid. Ind.App.Vol.II.111. The state
court maintained that position even after the PTO
issued notices of intent to cancel (i.e., invalidate) the
relevant claims before the conclusion of the state-court
trial.
See Notice of Intent to Issue Ex Parte
Reexamination Certificate, No. 90/014,131 (Nov. 26,
2018); Notice of Intent to Issue Ex Parte
Reexamination Certificate, No. 90/014,171 (Nov. 20,
2018). And the state court permitted Sasso at closing
argument to tell the jury that the ’313 patent “is in
force today”—despite the PTO having formally issued
notices of intent to cancel all of the relevant claims.
Ind.Tr.Vol.XII.40.
The trial ended with the state court delivering
detailed jury instructions on patent law and patent
claim coverage, including four pages borrowed from
the Federal Circuit Bar Association pattern
instructions, as well as its own construction of the
relevant terms in the ’313 patent claims.
Ind.Tr.Vol.XII.105; see also Ind.Tr.Vol.XI.226. Those
instructions directed the jury that it would “need to
understand the role of patent claims;” that it would
“need to understand what each claim covers in order
to decide whether … there is claim coverage for any …
Medtronic devices”; that the state trial court’s role was
“to define the terms of the claims,” and that the jury
had to apply the state trial court’s definitions.
Ind.Tr.Vol.XII.105-06. The trial court also elaborated
on the distinction between patent “[p]roduct claims”
and patent “process claims,” the distinction between
“independent” and “dependent” patent claims, and the

11
effects of those distinctions on patent coverage.
Ind.Tr.Vol.XII.107.
Based on the state court’s extensive instructions
on federal patent-law issues, and its construction of
the relevant patent claims, the jury found for Sasso
and awarded him over $112 million in damages.
App.16.
The state court entered judgment in
accordance with that verdict. Id. Shortly thereafter,
the PTO issued the reexamination certificates finally
canceling the relevant claims, making those patent
claims invalid ab initio. App.14-15; see Fresenius USA
Inc. v. Baxter Int’l, Inc., 721 F.3d 1330 (Fed. Cir. 2013).
Medtronic filed a timely appeal from the state trial
court’s judgment to the Indiana Court of Appeals.
App.16.
3. After receiving notice of the state trial court’s
judgment, the federal district court hearing
Medtronic’s mirror-image declaratory judgment
claims issued an opinion dismissing Medtronic’s
action on abstention grounds. Warsaw Orthopedic,
Inc. v. Sasso, 2019 WL 428574 (N.D. Ind. Jan. 31,
2019). The court assumed for purposes of its decision
that Medtronic’s claims (and Sasso’s mirror-image
state-court claims) arose under federal patent law,
such that federal courts had exclusive jurisdiction over
those claims. Id. at *2. Nevertheless, the district
court found abstention appropriate in light of the state
trial court’s decision addressing the mirror-image
claims and the ongoing state-court appeals from that
decision. Id. at *3-4.
4. Medtronic appealed the district court’s decision
to the Federal Circuit. In response, Sasso urged the
Federal Circuit to dismiss the appeal, arguing that

12
neither the district court nor the Federal Circuit had
jurisdiction because Medtronic’s claims did not arise
under the federal patent laws. App.15.
In a precedential decision, the Federal Circuit
squarely rejected Sasso’s jurisdictional argument,
holding that Medtronic’s claims arose under the
federal patent laws and therefore were within the
district court’s exclusive original jurisdiction and,
thus, the Federal Circuit’s own exclusive appellate
jurisdiction. Warsaw Orthopedic, Inc. v. Sasso, 977
F.3d 1224 (Fed. Cir. 2020).
That holding was
necessary to the Federal Circuit’s exercise of appellate
jurisdiction, which otherwise would have resided in
the Seventh Circuit.
The Federal Circuit has
exclusive jurisdiction over any “appeal from a final
decision of a district court … in any civil action arising
under … any Act of Congress relating to patents,” 28
U.S.C. §1295(a)(1). As the Federal Circuit recognized
(and as this Court explained in Gunn), exclusive
jurisdiction over patent disputes extends not only to
cases where federal patent law creates the underlying
right of action, but also to cases invoking state-law
causes of action in which federal patent-law issues are
“(1) necessarily raised, (2) actually disputed,
(3) substantial, and (4) capable of resolution …
without disrupting the federal-state balance approved
by Congress.” Warsaw, 977 F.3d at 1229 (quoting
Gunn, 568 U.S. at 258).
Applying that standard, the Federal Circuit held,
“the issues of validity and claim scope” presented in
Medtronic’s claims (and Sasso’s mirror-image statecourt claims) were “well-pleaded in this declaratory
complaint, are actually disputed, are substantial to

13
the federal system as a whole, and the federal-state
judicial balance would not be disrupted by the district
court’s exercise of declaratory jurisdiction.” Id. The
parties’ dispute was therefore “within the district
court’s jurisdictional authority,” and the Federal
Circuit—as opposed to the Seventh Circuit—had
jurisdiction to hear Medtronic’s appeal. Id.; see 28
U.S.C. §1631.
Despite finding exclusive jurisdiction, the Federal
Circuit nevertheless concluded that the district court
did not abuse its discretion by “abstaining,” in the
context of a Declaratory Judgment Act proceeding, in
favor of the state-court proceedings. Warsaw, 977
F.3d at 1232. Medtronic filed a petition for certiorari
seeking review of the Federal Circuit’s abstention
holding, and Sasso filed a conditional cross-petition
seeking review of the Federal Circuit’s jurisdictional
holding. See Nos. 20-1284 & 20-1452. This Court
denied certiorari on June 21, 2021, leaving in place the
Federal Circuit’s precedential holding that the claims
here arise under federal patent law and so are subject
to exclusive federal jurisdiction.
C. The Indiana Court of Appeals Explicitly
Rejects the Federal Circuit’s Decision
and Affirms the State Trial Court’s
$112 Million Patent-Based Judgment.
Less than two months after the Federal Circuit
issued its opinion, the Indiana Court of Appeals
released its own decision in Medtronic’s appeal from
the state trial court’s $112 million judgment. In open
and explicit conflict with the Federal Circuit, the
Indiana Court of Appeals affirmed the state trial
court, expressly rejecting the Federal Circuit’s holding

14
that the parties’ dispute here arises under federal
patent law and so can only be resolved by the federal
courts. Disparaging the Federal Circuit’s analysis as
“cursory,” the Indiana Court of Appeals applied the
Gunn factors for itself—and held, based on its own
analysis of Federal Circuit precedent (despite the
Federal Circuit’s polar opposite reading of that same
precedent), that the federal patent law issues of
validity and claim scope raised in this case are not
sufficiently “substantial to the federal system as a
whole” to warrant federal jurisdiction. App.26-27;
contra Warsaw, 977 F.3d at 1229 (“Applying the
standards of precedent, the issues of validity and
claim scope [here] … are substantial to the federal
system as a whole[.]”).
The Indiana Court of Appeals assumed (correctly)
that three of the Gunn factors are met here, i.e.,
(1) Sasso’s claims necessarily raise issues of federal
patent law regarding the relevant patents’ validity
and claim coverage; (2) those issues were vigorously
disputed; and (3) the federal-state balance would not
be disrupted by federal jurisdiction, especially given
that (unlike in Gunn) Indiana has no special state
interest here in the adjudication of a contract that is
not even governed by Indiana law (since the contracts
specify that Tennessee law applies). App.21-22. The
Indiana Court of Appeals nevertheless rejected
exclusive federal jurisdiction on the sole basis that in
its view—and despite the Federal Circuit’s explicit
contrary holding—the patent questions here were not
“substantial” because they were merely “fact
sensitive” issues that the federal system had no
“strong interest” in litigating. App.22-23. On that
basis, the Indiana Court of Appeals affirmed the state

15
trial court’s exercise of jurisdiction over this federal
patent case and its $112 million judgment for a “native
Hoosier.”
App.3.
The Indiana Supreme Court
subsequently denied discretionary review, leaving in
place the open conflict between the decision below and
the Federal Circuit over whether this case is subject
to exclusive federal jurisdiction.
REASONS FOR GRANTING THE PETITION

The decision below creates a split of authority
over whether the same patent dispute belongs in
federal or state court. That conflict cries out for this
Court’s review because it vividly illustrates the
ongoing confusion in the lower courts over the
application of the Gunn factors, and specifically over
how to determine whether a question of federal patent
law is substantial enough to warrant federal
jurisdiction.
The conflict here could not be more acute. Less
than two months before the decision below issued, the
Federal Circuit squarely held that this dispute raises
substantial issues of federal patent law and is subject
to exclusive federal jurisdiction and the Federal
Circuit’s own exclusive appellate jurisdiction.
Confronting a mirror-image suit so coterminous that
the federal courts abstained, the Indiana Court of
Appeals reached the opposite conclusion. The Indiana
Court of Appeals not only rejected the Federal
Circuit’s bottom-line result, but explicitly rejected its
reasoning.
Dismissing the Federal Circuit’s
considered views (on which its appellate jurisdiction
turned) as “cursory,” the Indiana court instead
concluded that the federal patent-law issues in this
case are of no great importance to the federal system,

16
and so affirmed the state trial court’s decision to
adjudicate those federal patent issues itself and enter
a $112 million judgment for its native son. That
decision openly conflicts with the Federal Circuit’s
finding of exclusive federal jurisdiction (and
substantial federal interest) on the very same facts—
an untenable conflict that cannot be resolved except
by this Court.
That square and irreconcilable
jurisdictional conflict alone is more than enough to
warrant this Court’s intervention.
But that stark conflict is reflective of a far broader
problem. As the decision below illustrates, the lower
federal and state courts have continued to struggle in
applying the Gunn test, especially the often outcomedeterminative question of whether a federal patentlaw issue is “substantial” to the federal system as a
whole. The dispute here is a far cry from the
professional responsibility dispute in Gunn, and the
spectacle of state courts holding Markman hearings
and delivering the Federal Circuit’s pattern jury
instructions makes a mockery of Congress’ decision to
grant federal courts exclusive jurisdiction over patent
disputes and expressly deny state courts that
jurisdiction. Granting review in this case would allow
this Court to dispel the lower-court confusion and
restore Congress’ vision.
The decision below not only countenances a statecourt patent trial, but rests on the theory that the
federal issues of patent validity and claim coverage
raised here are insubstantial to the federal system.
That theory cannot be reconciled with Congress’
judgment to confer exclusive federal jurisdiction over
patent claims, as the decision below effectively holds

17
that there is no substantial federal interest in the kind
of federal patent validity and claim coverage issues
that federal courts resolve in countless federal patent
cases every day. The decision below also invites state
courts to ignore the consequences of federal PTO
proceedings—just as the Indiana courts did here.
Allowing the decision below to stand would compound
the already-significant confusion in the lower courts
on this jurisdictional question and would dramatically
undermine Congress’ unambiguous decision to make
federal jurisdiction over patent cases exclusive.
The decision below creates an untenable situation
that necessitates this Court’s intervention. The
Federal Circuit and the decision below are split on the
same patent dispute. Congress’ intent to grant federal
courts exclusive jurisdiction over patent disputes has
been disregarded. And state courts have awarded a
“native Hoosier” tens of millions based on patent
claims that the PTO has invalidated and thereby
made void ab initio. The decision below cannot stand.
I.

The Decision Below Is In Direct Conflict
With The Federal Circuit’s Precedential
Decision On The Same Facts.

The decision below creates as stark a split as this
Court is likely to see. That split, moreover, concerns
a question of federal jurisdiction that only this Court
can settle. The Federal Circuit—the federal appellate
court that Congress created to hear patent appeals
from across the country—reviewed a parallel lawsuit
raising the very same patent-based dispute between
the very same parties. In a precedential opinion, it
held that the parties’ dispute here necessarily raises
issues of federal patent law that “are substantial to

18
the federal system as a whole,” and so falls within the
federal courts’ exclusive jurisdiction and the Federal
Circuit’s exclusive appellate jurisdiction. Warsaw,
977 F.3d at 1229. That holding was consistent with
the Federal Circuit’s prior precedent, in which that
court has held that issues of patent validity and claim
coverage embedded in breach of contract claims are
substantial to the federal system as a whole. See Jang
v. Bos. Sci. Corp., 767 F.3d 1334, 1336-38 (Fed. Cir.
2014). It could hardly be otherwise, as disputes about
patent validity and claim scope are the bread and
butter of federal patent disputes.
The Federal
Circuit’s precedential holding reaffirming as much on
the facts here is binding law in the Federal Circuit and
in cases adjudicated in federal district courts
nationwide.
The Indiana Court of Appeals, however,
deliberately and explicitly took the opposite view,
rejecting the Federal Circuit’s holding of exclusive
federal jurisdiction and concluding instead that the
state trial court properly took jurisdiction over this
federal patent dispute. That express conflict was not
the result of mere inadvertence; on the contrary, the
Indiana Court of Appeals explicitly recognized that
the Federal Circuit had already addressed the
relevant issue, even briefly considering whether the
Federal Circuit’s holding should be treated as res
judicata. App.20-21. The Indiana Court of Appeals
nevertheless declined to follow the Federal Circuit’s
decision, choosing instead to conduct its own
assessment of the federal interests at stake and
(contrary to the Federal Circuit) deeming those
federal interests insufficient to sustain federal
jurisdiction. That square jurisdictional conflict—an

19
express disagreement between the Indiana Court of
Appeals and the Federal Circuit over whether the very
same dispute can be heard in state court or only in
federal court—can be resolved only by this Court.
The Indiana Court of Appeals gave three excuses
for its conscious break with the Federal Circuit’s prior
holding. None is remotely persuasive—and indeed,
they only reinforce the need for this Court to
intervene.
First, the Indiana Court of Appeals dismissed the
Federal Circuit’s jurisdictional analysis as “cursory.”
App.26. But the Federal Circuit was under no
obligation to reinvent the wheel and properly relied on
its own prior precedent, which already explained why
exclusive federal jurisdiction (and Federal Circuit
appellate jurisdiction) is required in analogous
circumstances. See App.25 (citing Jang, 767 F.3d at
1336-38). Moreover, whatever its length, the Federal
Circuit’s evaluation of the Gunn factors and its
conclusion that each was satisfied was a holding that
was essential to its own appellate jurisdiction. Absent
its conclusion that the Gunn factors were satisfied, the
Federal Circuit would have been required to transfer
the appeal to the Seventh Circuit. See Warsaw, 977
F.3d at 1228-29. Instead, it exercised jurisdiction by
explicitly concluding that the patent validity and
claim coverage issues here “are substantial to the
federal system as a whole.” Id. at 1229.
Second, the Indiana court noted that the Federal
Circuit’s analysis “was based on the language of
Medtronic’s complaint for declaratory judgment, not
on Sasso’s state-court complaint.” App.26 (emphasis
omitted). That is a distinction without a difference.

20
Both Sasso himself and every court to examine
Medtronic’s complaint in the parallel federal litigation
has agreed that it alleges the “mirror image” of Sasso’s
state-court claims under the Facet Screw Agreement.
See, e.g., Warsaw, 977 F.3d at 1225 (noting the
“concurrent action in Indiana state court between the
same parties concerning the same dispute”); Warsaw,
2019 WL 428574, at *1 (recognizing Medtronic’s
claims as “the mirror image of Dr. Sasso’s claim”);
Corrected Brief of Defendant-Appellee at 28, Warsaw,
977 F.3d 1224 (Fed. Cir. filed Apr. 30, 2019)
(“Sasso.CAFed.Br.”) (calling Medtronic’s claims “the
‘mirror image’ of what Sasso was seeking … in the
state court”). Indeed, Sasso himself relied on the
mirror-image nature of the two suits in arguing to the
Federal Circuit that federal jurisdiction was improper,
see Sasso.CAFed.Br.28-29, 50-52, and the Federal
Circuit’s abstention ruling is premised on the same
mirror-image conclusion, see Warsaw, 977 F.3d at
1225, 1230. The Indiana Court of Appeals’ holding
allowing state jurisdiction over the claims here cannot
be reconciled with the Federal Circuit’s holding of
exclusive federal jurisdiction over mirror-image
claims arising from the exact same dispute.
Finally, the Indiana Court of Appeals seized on
the Federal Circuit’s abstention ruling as somehow
undercutting the Federal Circuit’s simultaneous
finding of exclusive jurisdiction. App.26. But that
abstention ruling just underscores that the
declaratory judgment action before the Federal
Circuit and this lawsuit addressed the exact same
patent dispute—and that abstention ruling is wrong
largely because it shifts the onus to this Court to

21
review a state court decision that has improperly
exercised jurisdiction over a federal patent dispute.
Put simply, there is no way to reconcile the
Indiana Court of Appeals’ holding that the federal
patent-law issues here are “not ‘substantial,’” App.22,
with the Federal Circuit’s holding that the exact same
issues in this exact same dispute are substantial and,
thus, subject to exclusive federal jurisdiction.
Warsaw, 977 F.3d at 1229. This Court should not
leave unresolved that stark jurisdictional conflict over
whether this case belongs in federal or state court.
II. The Decision Below Reflects The Ongoing
Confusion In The Lower Courts Over When
A Federal Issue Is Substantial Under Gunn.
The conflict between the decision below and the
Federal Circuit’s opposite ruling on the same facts is
a striking example of a much broader problem. In the
years since this Court decided Gunn, “[c]onfusion
about the scope of the federal courts’ and the Federal
Circuit’s jurisdiction over patent cases is on the rise.”
Paul R. Gugliuzza, Rising Confusion About “Arising
Under” Jurisdiction in Patent Cases, 69 Emory L.J.
459, 518 (2019). That confusion has centered in
particular on the substantiality factor of the Gunn test
(the sole factor on which the decisions here differed),
which the lower courts have increasingly struggled to
apply in any consistent fashion.
The doctrinal divergence over how to determine
whether a federal patent-law issue is substantial has
been truly remarkable. Some cases have attempted to
refine the substantiality inquiry by adopting three
sub-factors, asking (1) whether the patent issue at
stake is “a pure question of law,” (2) whether it will

22
“control many other cases,” and (3) whether “the
government has a strong interest in litigating [the
issue] in a federal forum.” MDS (Canada) Inc. v. Rad
Source Techs., Inc., 720 F.3d 833, 842 (11th Cir. 2013);
see, e.g., NeuroRepair, Inc. v. The Nath Law Grp., 781
F.3d 1340, 1345 (Fed. Cir. 2015); App.22. Other
decisions have (wisely) ignored those purported subfactors. See, e.g., Xitronix Corp. v. KLA-Tencor Corp.,
916 F.3d 429, 438-44 (5th Cir. 2019); Xitronix Corp. v.
KLA-Tencor Corp., 882 F.3d 1075, 1077-78 (Fed. Cir.
2018); Jang, 767 F.3d at 1336-38 (Fed. Cir. 2014).
Some decisions have found that it matters whether the
patent at issue remains in effect, see, e.g., Xitronix, 916
F.3d at 440; App.23, while others have explicitly held
that makes no difference, see, e.g., Xitronix Corp. v.
KLA-Tencor Corp., 757 F.App’x 1008, 1010 (Fed. Cir.
2019); Jang, 767 F.3d at 1338. Some decisions have
found disputes focused on the validity or construction
of a single patent insufficient, see, e.g., MDS, 720 F.3d
at 842-43, while others have reached the opposite
conclusion, see, e.g., Xitronix, 916 F.3d at 441. Still
other cases have identified their own additional
relevant factors, such as whether allowing a state
court to resolve the particular patent-law issue at
stake would undermine the uniformity of federal
patent law, see, e.g., Inspired Dev. Grp., LLC v.
Inspired Prods. Grp., 938 F.3d 1355, 1366 (Fed. Cir.
2019), or whether a case presents issues “unique to
patent law,” Xitronix, 882 F.3d at 1077, and have
made unpersuasive attempts to distinguish materially
similar decisions that have reached opposite results,
see Gugliuzza, supra, at 497 n.245 (recognizing
“conflict” between Inspired Development and Jang and

23
noting that “current law does not support [the]
distinction” Inspired Development adopted).
That doctrinal confusion has produced divergent
outcomes—including, as here, when addressing the
same underlying patent dispute.
The Xitronix
litigation provides a recent and particularly notable
example, second only to this case as an illustration of
the difficulties that the lower courts have faced. In
Xitronix, a plaintiff filed an antitrust claim in federal
district court alleging that the defendant had violated
federal antitrust law by fraudulently obtaining a
patent—a claim “in which patent law is a necessary
element.” Xitronix, 882 F.3d at 1076. The case was
appealed to the Federal Circuit, which sua sponte
ordered two rounds of supplemental briefing on
whether the case arose under the federal patent laws.
Id. at 1075-76. In response, both parties agreed that
the case necessarily raised substantial questions of
federal patent law—including whether the patent at
issue was fraudulently obtained—and so the appeal
belonged in the Federal Circuit. Id. The Federal
Circuit disagreed and transferred the appeal to the
Fifth Circuit, concluding that despite prior precedent
holding that such claims “clearly involve [the Federal
Circuit’s] exclusive jurisdiction,” the case raised no
substantial patent-law issue. Id. at 1078. That ruling
drew a sharp dissent from denial of rehearing en banc,
which criticized the decision for adopting “a vast
jurisdictional change for the regional circuits as well
as the Federal Circuit.” Xitronix Corp. v. KLA-Tencor
Corp., 892 F.3d 1194, 1196 (Fed. Cir 2018) (Newman,
J.).

24
The confusion did not end there. On transfer, the
Fifth Circuit recognized that it was required to accept
jurisdiction unless the Federal Circuit’s analysis was
not just wrong, but “implausible.” Xitronix, 916 F.3d
at 440-41; see Christianson v. Colt Indus. Operating
Corp., 486 U.S. 800, 819 (1988). Remarkably, the
Fifth Circuit found the Federal Circuit’s jurisdictional
analysis implausible “[u]nder any reading of Gunn.”
Xitronix, 916 F.3d at 435-44. The Fifth Circuit
therefore declined jurisdiction and transferred the
appeal back to the Federal Circuit. Id. at 444.
In response, the Federal Circuit issued a per
curiam decision reaffirming its previous analysis and
explicitly “reject[ing]” much of the Fifth Circuit’s
reasoning as “incorrect[].” Xitronix, 757 F.App’x at
1009-10.
But to end the “perpetual game of
jurisdictional ping-pong,” Christianson, 486 U.S. at
818, the Federal Circuit resigned itself to
characterizing the Fifth Circuit’s decision as at least
“plausible,” and so accepted the return transfer—even
while continuing to openly disagree with the Fifth
Circuit’s jurisdictional analysis, and in particular with
its conclusion that the federal patent issues at stake
were substantial under Gunn. Xitronix, 757 F.App’x
at 1008-10.
Xitronix illustrates that even federal appellate
courts are in hopeless disarray on the proper
application of Gunn’s substantiality analysis. The
decision below adds state courts, which are explicitly
prohibited from exercising jurisdiction over patent
claims under 28 U.S.C. §1338(a), into the mix. As this
case illustrates, state courts not only are confused over
the law but have a predisposition to seeing state-law

25
claims as raising only insubstantial patent-law
questions. In short, the stark conflict between the
decision below and the Federal Circuit’s contrary
decision on the same facts is just an especially glaring
example of a widespread problem. Across numerous
cases, the lower courts, state and federal, have
struggled to reach any consistent understanding of
when a federal patent-law issue is substantial under
Gunn, and have repeatedly reached squarely
conflicting jurisdictional outcomes even in the same
case. The sharp conflict over these jurisdictional
issues is untenable.
III. The Decision Below Is Emphatically Wrong
And Thwarts Congress’ Express Directives.
The decision below illustrates the need for this
Court’s intervention not only because it creates a
square conflict with the Federal Circuit, but also
because it is emphatically incorrect. Patent trials
belong in federal court, not state court, and the
Indiana Court of Appeals had no valid basis for
reaching the opposite conclusion here.
1. Congress has unequivocally provided the
federal district courts with exclusive jurisdiction over
cases arising under federal patent law, and
unequivocally denied state courts jurisdiction over
such cases. To quote §1338(a):
The district courts shall have original
jurisdiction of any civil action arising under
any Act of Congress relating to patents … No
State court shall have jurisdiction over any
claim for relief arising under any Act of
Congress relating to patents.

26
28 U.S.C. §1338(a); see, e.g. Gunn, 568 U.S. at 257
(Congress “not only provided for federal jurisdiction
but also eliminated state jurisdiction” over patent
cases in §1338(a)). Congress has likewise assigned the
Federal Circuit exclusive appellate jurisdiction over
all appeals arising under federal patent law,
protecting the uniformity of federal patent doctrine by
ensuring that only one federal appellate court will
review federal patent cases. 28 U.S.C. §1295(a)(1).
As this Court explained in Gunn, a case arises
under federal patent law not only when federal patent
law creates the cause of action, but also when a federal
patent-law issue is “(1) necessarily raised, (2) actually
disputed, (3) substantial, and (4) capable of resolution
in federal court without disrupting the federal-state
balance approved by Congress.” 568 U.S. at 258.
When those four factors are met, exclusive federal
jurisdiction is proper because of the “serious federal
interest in claiming the advantages thought to be
inherent in a federal forum” for federal patent cases,
including the uniformity and predictability that
exclusive federal jurisdiction and Federal Circuit
review provide. Id. (quoting Grable & Sons Metal
Prods. v. Darue Eng’g & Mfg., 545 U.S. 308, 313-14
(2005)).
With respect to the third factor—whether the case
raises a “substantial” question of federal patent law—
Gunn explained that courts should consider “the
importance of the issue to the federal system as a
whole.” Id. at 260. Applying that standard, Gunn held
that a state-law legal malpractice claim did not arise
under federal patent law, even though it asserted that
the defendant provided inadequate assistance in a

27
patent infringement suit. Id. at 259-65. As this Court
explained, given the unique “backward-looking
nature” of a legal malpractice claim, the only patent
question that a legal malpractice suit raises is the
“merely hypothetical” issue of how the underlying
patent case would have been resolved if it had been
properly litigated. Id. at 261. The answer to that
purely hypothetical question, the Court held, had no
broader significance to the federal system and so was
“not substantial in the relevant sense.” Id. at 260. In
addition, assigning legal malpractice claims premised
on patent cases to the exclusive jurisdiction of the
federal courts would markedly upset the federal-state
balance, given that states have a “special
responsibility” and an “especially great” interest in
legal malpractice suits as a mechanism for regulating
lawyers as officers of the court. Id. at 264 (quoting
Ohralik v. Ohio State Bar Ass’n, 436 U.S. 447, 460
(1978); Goldfarb v. Va. State Bar, 421 U.S. 773, 792
(1975)).
2. The decision below cannot be reconciled with
the principles set out in §1338(a) and Gunn. The
Indiana Court of Appeals correctly assumed that the
first, second, and fourth Gunn factors were met here—
that is, Sasso’s claims necessarily raised issues of
federal patent law, those issues were actually
disputed, and allowing the federal courts to adjudicate
them would not upset the federal-state balance.
App.21-22. The court nevertheless rejected exclusive
federal jurisdiction based solely on its conclusion—in
direct conflict with the Federal Circuit—that the
patent validity and claim coverage issues here were
not “substantial” because they lacked the necessary
“importance … to the federal system as a whole” to

28
warrant adjudication in the federal courts. App.22.
That is wrong, and cannot be squared with Congress’
explicit decision to assign patent cases exclusively to
the federal courts.
This case turns on questions that lie at the heart
of federal patent law. In order to resolve Sasso’s
claims, the Indiana courts were required to decide
whether the Medtronic products at issue were
“covered by a valid claim of an issued U.S. patent,”
App.11, 42-43, or equivalently, whether any patent
had issued with “valid claim coverage” of those
products, App.6, 36.
That language raises the
quintessential federal patent-law questions of validity
and claim coverage that lie at the heart of countless
archetypal patent infringement cases litigated in
federal court every year. Those questions of patent
validity and claim coverage are plainly fundamental
to the federal patent system as a whole—which is
precisely why Congress assigned all patent
infringement cases (and all other cases arising under
the federal patent laws) to the federal courts, to ensure
consistent and uniform adjudication of those very
same issues. 28 U.S.C. §1338(a); see, e.g., Bonito
Boats, Inc. v. Thunder Craft Boats, Inc., 489 U.S. 141,
162-63 (1989).
The Indiana Court of Appeals’
conclusion that those classic patent-law questions are
not important enough to the federal system to warrant
federal jurisdiction is flatly at odds with Congress’
judgment that those same questions are important
enough to warrant exclusive federal jurisdiction in
typical patent infringement cases.
Put simply, the same federal patent-law issues of
patent validity and claim coverage cannot be

29
substantial in prototypical patent infringement cases
and insubstantial here. The only relevant difference
between this case and a typical infringement action is
that the parties here signed a contract, and so Sasso
is relying on that contract for his cause of action rather
than on 35 U.S.C. §281. That adds a modest layer of
complexity to the jurisdictional analysis, see Gunn,
568 U.S. at 257-58, but it certainly does not make the
patent-law issues of validity and claim coverage here
any less substantial to the federal system as a whole.
In fact, Congress has made clear that whether a
federal patent issue is substantial enough to warrant
federal jurisdiction should not turn on procedural
niceties or the alignment of the parties. When this
Court held that patent counterclaims were insufficient
to invoke exclusive federal jurisdiction and Federal
Circuit appellate jurisdiction, Holmes Grp., Inc. v.
Vornado Air Circulation Sys., Inc., 535 U.S. 826
(2002), Congress responded by amending §1295(a)(1)
and §1338(a) to ensure exclusive federal jurisdiction.
See Leahy-Smith America Invents Act, Pub. L.
No. 112-29, §19(a)-(b), 125 Stat. 284, 331-32 (2011).
By contrast, the logic of the decision below would
suggest that standard issues of patent validity and
claim coverage at the heart of countless federal-court
patent cases are insubstantial, even though Congress
long ago gave the federal courts exclusive jurisdiction
over such actions. That conclusion makes no sense
whatsoever, and is irreconcilable with Congress’
decision to assign patent cases exclusively to the
federal courts.
The patent validity and claim coverage issues
here stand in stark contrast with the questions that

30
this Court deemed insufficient for federal jurisdiction
in Gunn. In Gunn, the Court was faced with an
unlikely outlier: a legal malpractice suit that the
plaintiff claimed arose under federal patent law
simply because the alleged malpractice occurred in a
patent case. As the Court recognized, the inherently
“backward-looking nature of a malpractice suit”
meant that the only patent issues raised in Gunn were
hypothetical questions about whether a patent would
have been found valid if counsel had raised certain
arguments in earlier patent litigation (which itself
took place in federal court, as §1338(a) requires). 568
U.S. at 261. Those hypothetical questions could not
have any effect even on the patents at issue (whose
validity was definitively resolved in the federal patent
litigation in which the alleged malpractice occurred),
and were exceptionally unlikely to have any broader
effect on federal patent law as a whole. Id. at 261-62.
Here, by contrast, the questions of patent validity and
claim coverage raised in this suit are questions that
stand at the heart of federal patent law, and are raised
as to patents that were purported to be valid and in
force when the suit was filed. Those basic patent-law
questions are worlds away from the hypothetical
issues posed in Gunn, and easily important enough to
the federal patent system to support federal
jurisdiction.
3. The Indiana Court of Appeals gave no remotely
persuasive justification for its extraordinary
conclusion that issues of patent validity and claim
coverage are not important to the federal patent
system. Nor could it.

31
The court began its analysis with a dubious lowercourt gloss on Gunn, relying on three purported subfactors that some (but not all) decisions have applied
to guide the substantiality inquiry. App.22. First, the
court stated that the case did not “implicate[] a pure
question of federal-patent law” because “the actual
issue to be determined by the jury—whether
Medtronic breached its agreements with Sasso—was
heavily fact sensitive.” Id. But the trial court here
was called upon to decide pure questions of federal
patent law before the case could even go to the jury:
namely, the proper construction of disputed terms in
the relevant claims of the ’313 and ’046 patents, which
the state trial court resolved in its Markman hearing
and order. Ind.App.Vol.XVI.127-29. See Teva Pharm.
USA v. Sandoz, 574 U.S. 318, 331-32 (2015)
(recognizing that claim construction is a matter of law
where, as here, only intrinsic evidence is considered).
In any event, the fact that the patent validity and
claim coverage issues here depended in part on the
context of the case hardly suggests that those issues
are unimportant to the federal patent system as a
whole. After all, every patent validity and claim scope
dispute turns on some case-specific facts, but that
hardly suggests the federal patent system has no
substantial interest in those disputes. E.g., Jang, 767
F.3d at 1336-38; see Maxchief Invs. Ltd. v. Wok & Pan,
Ind., Inc., 909 F.3d 1134, 1140 n.3 (Fed. Cir. 2018)
(recognizing issues of “infringement and validity” can
satisfy Gunn).
Second, the Indiana court stated that this was
“not a case where the judgment will control many
other cases” because it “controls only Medtronic and
Sasso.” App.22-23. That is true only in the limited

32
(and irrelevant) sense that every federal patent
infringement trial directly controls only the patent
holder and the alleged infringer. But just like gardenvariety federal-court patent infringement suits (and
unlike the legal malpractice suit in Gunn), the state
trial court’s claim construction and judgment for Sasso
in this patent-based suit could prevent Medtronic from
asserting the full scope of its patents in later suits
against third parties. See Jang, 767 F.3d at 1337
(recognizing that “inconsistent judgments between
state and federal courts” could prevent the patentee
from asserting “the full scope of its patent as construed
in federal court”). Even absent estoppel, the decision
below creates the risk that federal courts could
construe Medtronic’s claims differently in later
infringement actions, potentially forcing Medtronic to
pay royalties to Sasso on products that third parties
can sell without such royalties. The Federal Circuit’s
exclusive jurisdiction exists partly to avoid such
contradictory outcomes, and the prospect of such
inconsistent judgments underscores the substantiality
of the federal patent issues here. See Maxchief, 909
F.3d at 1140 n.3; Jang, 767 F.3d at 1337.
Third, the Indiana Court of Appeals stated that
this was “not a case in which the federal government
has a strong interest in litigating the issue in federal
court” because, in the court’s view, this case “is
fundamentally a contract dispute.” App.23. But that
just obscures the relevant question: whether the
federal patent-law issues that are necessarily raised
by Sasso’s contract claims (including their interplay
with the parallel federal PTO proceedings) are
significant to the federal system as a whole. When, as
here, that is the case, Congress has made the relevant

33
judgment that the federal government has a
substantial interest in federal-court jurisdiction.
Whether a state court perceives that the federal
executive branch would identify the same interest in
any particular case is entirely beside the point.
4. In addition to its questionable analysis of those
invented sub-factors, the Indiana Court of Appeals
invoked a variety of other equally unpersuasive
rationales. Thus, for instance, the court asserted that
the claim coverage issues here were not substantial
because the state jury here “did not need to determine
whether
Medtronic’s
products
would
have
infringed … Sasso’s patents” but only “whether the
products were covered under the royalty provisions of
the agreements.” App.25. That assertion is pure
semantics.
Patent “coverage” here is the same
question as patent “infringement”—whether the
patent covers (and so would be infringed by) the
products at issue—which is why “[c]ontract claims
based on underlying … royalty obligations” like those
here necessarily raise a substantial issue of federal
patent law. Jang, 767 F.3d at 1337.
The Indiana court also asserted that Sasso’s suit
“does not involve ‘ongoing’ royalty obligations, and
there is no evidence of potential ‘suits affecting other
parties.’” App.25-26. But subject matter jurisdiction
is measured based on “the facts as they existed at the
time the complaint or any compulsory counterclaim
was filed,” not based on subsequent developments.
Jang, 767 F.3d at 1338; see, e.g., Xitronix, 757 F.App’x
at 1010 (“[W]e reject the theory that our jurisdiction
turns on whether a patent can still be asserted.”); cf.
Grupo Dataflux v. Atlas Global Grp., 541 U.S. 567

34
(2004). The subsequent cancellation of the patent
claims at issue here in PTO reexamination—which
Medtronic sought in response to Sasso’s own broad
interpretation of those patent claims in this suit—can
neither eliminate the exclusive federal jurisdiction
that Congress provided for this suit nor create the
state jurisdiction that Congress prohibited.
In fact, the subsequent invalidation of some of the
patent claims here on reexamination by the PTO only
confirms the existence of substantial federal patentlaw issues and interests in this case. See App.14-15.
The Federal Circuit has developed a specific set of
legal rules governing the interactions between PTO
reexaminations and (federal-court) patent litigation,
which make clear that claims cancelled on
reexamination are invalid ab initio. See Fresenius,
721 F.3d 1337. The proper application of those federal
rules concerning the effect of PTO cancellation is yet
another issue of federal patent law that the Indiana
courts here misapprehended and misapplied to
Medtronic’s detriment. See App.32-34.
IV. The Jurisdictional Question Presented Is
Exceptionally Important.
The jurisdictional question presented in this case
is also exceptionally important, both for litigants
engaged in patent disputes and for the courts asked to
adjudicate those disputes (and more broadly, for
businesses and inventors nationwide that rely on
consistent and uniform federal interpretation of the
federal patent laws). It is well established that
“jurisdictional rules should be clear,” Lapides v. Bd. of
Regents, 535 U.S. 613, 621 (2002), and the lower

35
courts’ current application of the third Gunn factor is
anything but.
That uncertainty regarding the scope of exclusive
federal jurisdiction over patent cases not only
encourages “wasteful litigation about matters entirely
collateral to the merits,” Gugliuzza, supra, at 465, but
risks severe consequences if (as here) a court errs in
making that jurisdictional determination. Because
subject-matter jurisdiction under §1338(a) is
exclusive, cases that arise under federal patent law
can be heard only in federal court, while cases that do
not arise under federal patent law (and have no other
basis for federal jurisdiction) can be heard only in
state court. As such, a mistake in evaluating whether
a case arises under federal patent law will almost
invariably mean that the erring court lacked subjectmatter jurisdiction, a flaw that can “wipe out years of
litigation and result in millions of dollars wasted.” Id.
And where, as here, a state court defies Congress’
instructions and proceeds to adjudicate a patent case,
it threatens to destroy the certainty and uniformity in
federal patent law that Congress created exclusive
federal patent jurisdiction and the Federal Circuit
itself to protect (and reinforced that jurisdiction to
protect further following Holmes). This Court should
not force parties and courts to risk costly jurisdictional
mistakes without clearer guidance on the governing
jurisdictional rules, and should not countenance statecourt intrusion in the patent realm that Congress
expressly reserved for the federal courts.

36
CONCLUSION
This Court should grant the petition for certiorari.
Respectfully submitted,
PAUL D. CLEMENT
Counsel of Record
JOHN C. O’QUINN
C. HARKER RHODES IV
MARIEL A. BROOKINS
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Counsel for Petitioners
October 8, 2021

